OIG Investigative Reports Press Release, Pittsburgh, PA 01/16/2013 - Painting Contractor Sentenced in Bidding Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney David J. Hickton
Western District of Pennsylvania
FOR IMMEDIATE RELEASE
WEDNESDAY, JANUARY 16, 2013
WWW.JUSTICE.GOV/USAO/PAW
Painting Contractor Sentenced in Bidding Scheme
PITTSBURGH - A resident of Allegheny County has been sentenced in federal court to five months
imprisonment and five months home detention with electronic monitoring, to be followed by three
years supervised release, on his conviction of theft from a program receiving federal funds, United
States Attorney David J. Hickton announced today. He was also ordered to pay restitution to the
West Mifflin Area School District in the amount of $94,439.
United States District Judge Cathy Bissoon imposed the sentence on Ralph D. Imbrogno,
65, of 610 Oberdick Drive, McKeesport, Pa.
According to information presented to the court, from May 2008 through March 2010,
Imbrogno aided and abetted Patrick Risha, the Superintendent of the West Mifflin Area School
District, in defrauding the school district and misapplying a total of $94,439 in district funds. The
fraud was committed in connection with the school district's awarding of 10 painting contracts to
Imgrogno's son's painting company, Imbrogno Painting. Imbrogno aided Risha in defrauding the
school district by producing false bid proposals from painting contractors for the contracts requiring
a competitive bidding process.
Imbrogno previously pled guilty to one count of aiding Risha in the fraud with respect to a
contract in the amount of $9,995.00, issued to Imbrogno Painting for the painting of a portion of
the interior of Emerson Elementary School. Imbrogno Painting was paid for such services by check
issued on October 21, 2009, from the West Mifflin Area School District "General Fund" account.
The West Mifflin Area School District was the recipient of in excess of $1,000,000 of federal
monies from the United States Department of Education during the 12-month period, including Oct.
21, 2009.
Assistant United States Attorney Carolyn J. Bloch prosecuted this case on behalf of the
government.
U.S. Attorney Hickton commended the Federal Bureau of Investigation and the U.S.
Department of Education Office of Inspector General Investigation Services for the investigation
leading to the successful prosecution of Imbrogno.
###
Top
Printable view
Last Modified: 01/22/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov